TN THE
OF THE UNITED STATES
COURT
SUPREME
No.
DR. USHA JAIN AND MANOHAR JAIN
Petitioners,
V.

DAVID BARKER, MARY BETH VALLEY,
MICHAEL FURBUSH and ROETZEL &
ANDRESS, L.P.A.,
Respondents,

APPLICATION OF DR. USHA JAIN AND MANOHAR JAIN FOR AN EXTENSION OF
TIME WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI TO
THE FIFTH DISTRICT COURT OF APPEALS OF STATE OF FLORIDA FOR THE
ELEVENTH CIRCUIT

To the Clerk of the Court or Honorable (Justice) of the (Court of the above circuit)
Petitioners Dr. Usha Jain and Manohar Jain appearing pro Se, pursuant to Rule 13(5) of the
Rules of this Court hereby move for an extension of appropriate time for the filing of a petition for
a writ of certiorari to review the decision of the Fifth District Court of Appeals of State of Florida
for the eleventh circuit dated January 22, 2019 (Exhibit I), on which a timely petition for
rehearing and for rehearing en banc was denied on February 27, 2019. (Exhibit 2). The jurisdiction
of this Court is based on 28 U.S.C. § 1254(1).
The application for extension is being filed 12 days prior to the due date of May 28, 2019 and
copies of opinions are attached as an exhibit per rule.

1.

The date within which a petition for writ of certiorari would be due, if not extended, is

May 28, 2019. If the extension is granted then writ of certiorari would be due according to the

çVED
MAY 2 1 2019

-S

order..
This court has jurisdiction to hear the judgment of highest court of the State of Florida
because this case involves; (i) issue of Federal Law and. (ii) an issue concerning the Constitution
of United States of America.
Expressly affects the class of Constitutional officer and state officers;
The decision expressly and directly conflicts with decision of other district courts of
appeal of Florida and court of other states.
Issue of great public importance with far reaching implications to the public for
discrimination and violation of fundamental due process.
The petition is worth the time because it involves because there is a violation of
fourteenth amendment, constitutional rights of fundamental due process which resulted in
substantial prejudice and irreparable harm to the petitioners resulting in a "miscarriage of justice."
The petition is necessary for the violation of 14th amendment of the Constitution of
equal protection under the laws of the United States of America by unlawful discrimination against
the pro se litigants who are older and of ethnic origin (Indian) and thereby violated the Federal laws
of the United States of America by the state officers in the case.
The case is of great public importance as it involves the violation of the Constructional
rights of due process and equal protection under the US laws specially for pro Se, older and ethnic
origin which also affects million of people all over America..

2

Important questions of the law which were determined adversely by the trial court and
Appellate court.
Extension is requested because there is an integral issues of entitlement of the parties as
the petitioners have also filed the entitlement for frivolous unlawful defenses under FS § 57.105.
The evidentiary hearing is set for September 11, 2019 for both sides to be heard for
frivolous defense and complaint.. This hearing is the integral part of the case as it will decide the
victorious party in the case under 57.105 and then the case would be final.
The petitioners are requesting to file a Writ of Certiorari after the determination of the
victorious party in 57.105 because 57.105 applies for any frivolous defense as well.
In alternate, Petitioners request an order of granting an extension to file a writ of
certiorari but it can be placed in a state of abeyance till the order is rendered from the lower court
or minimum of 60 days

Respectfully submitted on this 16th day of May, 2019.
jCL

Dr. Usha Jain Pro Se and Manohar Jain pro se
4800 S. Apopka-Vineland Rd
Orlando, FL 32819
(407) 876-5555
Fax:: (407) 876-5557
Email:drjainproselitigantoutlook.com
jainemergicare@ outlook.com

91

